                                                 March 26, 2008




MEMORANDUM TO:                  Luis A. Reyes
                                Executive Director for Operations



FROM:                           Stephen D. Dingbaum /RA/
                                Assistant Inspector General for Audits


SUBJECT:                        MEMORANDUM REPORT: AUDIT OF NRC’S
                                CONTRACT FOR ALTERNATIVE DISPUTE
                                RESOLUTION SERVICES (OIG-08-A-08)


As part of the Office of the Inspector General’s (OIG) audit of NRC’s enforcement
program, auditors identified issues regarding an NRC contract for alternative
dispute resolution (ADR) services that warrant your attention. Specifically,

            •   The current contract needs to be modified or renegotiated
                    o the contract’s billing requirements are inadequate, and
                    o the statement of work is insufficient;
            •   contract management needs improvement; and
            •   the appearance of a conflict of interest exists.

As a result, NRC lacks the ability to provide effective contract oversight, which
reduces its ability to prevent procurement fraud and abuse.


BACKGROUND

On September 27, 2006, NRC awarded a $334,400 fixed-price, sole-source
contract to Cornell University (Cornell) to provide neutral services supporting the
enforcement ADR program1 for a 2-year period.2 ADR is a term that refers to a



1
  See OIG-08-A-03, Audit of NRC’s Alternative Dispute Resolution Program, for a fuller
discussion on the ADR program at NRC.
2
  The contract has a provision in which it may be extended for three additional years. Including
these additional years, the total cost of the contract could be $893,000.
                                       Audit of NRC’s Contract for Alternative Dispute Resolution Services



number of processes, such as mediation and facilitated dialogues, that can be
used to assist parties in resolving disputes. ADR is a voluntary process that
often involves the use of a skilled third party neutral.3


PURPOSE

The objective of this audit was to determine if NRC’s contract for ADR services
had the appropriate controls in place.


RESULTS

While the contract with Cornell has been used for more than a year for a number
of ADR cases, NRC does not have the ability to provide effective contract
oversight. This is caused by deficiencies in the contract such as inadequate
billing requirements and an insufficient statement of work. Furthermore, there is
minimal contract management over the contract. Thus the agency’s ability to
prevent procurement fraud and abuse is reduced. In addition, there is the
appearance of a conflict of interest due to NRC’s project officer’s association with
a Cornell workshop.

Standards for Contracting

The Federal Acquisition Regulation provides contracting guidance for services or
goods needed by the Government. Standard fixed-price contracts do not require
detailed invoicing terms; however, under certain other contract types, the
contractor may be required to submit invoices once each month (or more) and
the invoice should include labor categories and hours billed. The invoice should
also include the contractor’s travel costs with the required supporting
documentation.4

The statement of work is an essential piece of the contract. The requirements
and definitive standards for measuring the contractor’s performance should be
explicit in the statement of work. Regardless of the communication between
NRC and the contractor as the work progresses, the parties must rely on the
language in the statement of work as the final determinant of scope,
responsibilities, and obligations. The statement of work should include an
itemized list of reports, documentation, and other deliverables, together with a
delivery schedule.




3
  A “neutral” is an individual who, with respect to an issue in controversy, functions specifically to
aid the parties in resolving the controversy.
4
  Required documentation means that receipts are needed for any charges $75 or more.
                                    Audit of NRC’s Contract for Alternative Dispute Resolution Services



The project officer, an NRC employee designated by the office holding the
contract, has certain contract administration functions. The project officer’s
duties include monitoring the contractor’s performance closely to ensure the work
is satisfactorily performed in a timely manner. The project officer is the primary
point of contact with the contractor on all technical project matters and provides
technical direction to the contractor, monitors costs, and inspects and accepts
deliverables.

NRC has an acquisition certification program required for individuals who will be
involved in any phase of awarding and administering a commercial contract.
Project officers must take the basic certification training, which includes the
completion of five mandatory training module workshops. In addition, project
officers are required to receive refresher training every 3 years to maintain their
certification.

Improvements Needed to ADR Contract

NRC’s current contract needs to be modified or renegotiated because the billing
requirements are inadequate and the statement of work is insufficient.
Furthermore, contract management needs improvement. Due to other duties,
the project officer told OIG that he does not have sufficient time available to
perform rigorous contract management. Despite the need for NRC to improve its
control and management over the contract, NRC’s project officer said that
Cornell is good at furnishing its services, such as providing a roster of mediators
and getting the parties to agree on a mediator to oversee the process.

        Current Contract

NRC issued a fixed-price contract to Cornell to provide neutral services
supporting the agency’s enforcement ADR program. However, NRC is not able
to reasonably know the cost or performance details. Use of the ADR program is
voluntary, and any participant may end the mediation at any time. As a result,
the price per case can range from a little over $400.00 to almost $4,000.005
depending on how far the case proceeds through the process, how many days of
mediation are required, and the travel costs. NRC estimates that Cornell will
provide neutral services for 30 to 80 cases over the contract’s 2 year base
period.

        Contract Billing Requirements Inadequate

Under the current contract, there are limited billing instructions and no
requirements for travel reimbursement or for billing frequency. NRC’s project
officer noted that Cornell personnel are often confused by the contract--
particularly the billing instructions. For example, Cornell called NRC asking for
full payment of the contract (approximately $334K). NRC had to explain that

5
  Figures based on prices for the period 10/01/06-09/30/08. Prices are scheduled to increase for
the period 10/01/08-09/30/11.
                                                3
                                    Audit of NRC’s Contract for Alternative Dispute Resolution Services



Cornell only gets paid for work it actually performs. While NRC reimburses the
mediators for their travel expenses, the project officer has not received any
receipts for the travel costs nor do the billing instructions require Cornell to
provide such documentation. As of December 31, 2007, Cornell had not
submitted an invoice to NRC for any services it performed on the contract that
was let September 27, 2006. Therefore, NRC had not been billed for services
that Cornell performed for the last 15 months.

        Statement of Work Insufficient

Problems during contract performance are often traceable to the approach,
terminology, and content of the statement of work. The statement of work for the
Cornell contract includes eight tasks. However, the contractor is not required to
contact NRC or provide any deliverables until task five, which is the mediation
conclusion. During task five, the contractor is required to provide NRC with a
copy of each completed case evaluation. If a case does not reach the mediation
phase because a participant pulled out earlier, Cornell is not required to notify
NRC. However, according to the project officer and representatives at Cornell,
the contractor has been keeping NRC updated on its progress throughout the
process even though Cornell is not required to do so by the statement of work.

        Contract Management Needs Improvement

In accordance with the current contract, NRC’s project officer is required to issue
delivery orders6 to Cornell before work can begin. NRC’s project officer provided
OIG with copies of the delivery orders for 2007. With only one exception, Cornell
began conducting its neutral services prior to the delivery order authorization.
NRC issued the delivery orders from 1 day up to 94 days7 after Cornell began
work. See Figure 1 for more details.




6
 The Federal Acquisition Regulation defines delivery order as an order for supplies placed
against an established contract or with Government sources.
7
 This represents 94 calendar days. Taking weekends and holidays into account, the delivery
order was actually 66 work-days late.
                                                4
                                   Audit of NRC’s Contract for Alternative Dispute Resolution Services



Figure 1: Delivery Orders for Cornell's Neutral Services
                Delivery       Delivery        Work Start     Days Work Started
                Order #       Order Date         Date        Prior to Delivery Order
                                                                  Authorization
                07-001A     01/16/07           01/08/07                  8
                07-002A     01/18/07           01/16/07                  2
                07-003A     02/12/07           02/06/07                  6
                07-004A     02/26/07           02/20/07                  6
                07-005A     03/12/07           03/08/07                  4
                07-006A     03/23/07           03/13/07                 10
                07-007A     04/16/07           04/04/07                 12
                07-008A     05/04/07           05/02/07                  2
                07-009A     05/04/07           04/19/07                 15
                07-010A     05/17/07           05/17/07                  0
                07-011A     08/10/07           05/08/07                 94
                07-012A     08/10/07           07/18/07                 23
                07-013A     08/10/07           07/24/07                 17
                07-014A     08/10/07           07/19/07                 22
                07-015A     08/10/07           07/18/07                 23
                07-016A     08/10/07           07/20/07                 21
                07-017A     08/10/07           07/23/07                 18
                07-018A     08/10/07           07/25/07                 16
                07-019A     08/10/07           07/25/07                 16
                07-021A     08/31/07           08/21/07                 10
                07-022A     10/11/07           10/10/07                  1
                Average Number of Days Late:                           ~16




Although Cornell proposed, as key personnel, a senior official at the University to
serve as the contract manager with primary responsibility over the work
performed, NRC’s project officer is aware that an administrative assistant is
performing the duties instead. The contract manager’s responsibilities include
directing and administering the mediation services; directing the program support
work; managing the data analysis, evaluation and performance of services; and
developing and maintaining a correspondence tracking system and maintaining
all program files in accordance with the project requirements. Furthermore, in its
proposal, Cornell stated that the contract manager would, in managing this
program caseload, adhere to the following procedures:

          •   Initial contact with potential parties to assist in determining whether
              they are interested in pursuing ADR.

          •   Contact parties to confirm interest and document agreement to
              mediate.

          •   Contact acceptable session neutral and conduct initial conflict of
              interest check.

Yet, according to NRC’s project officer and representatives at Cornell, an
administrative assistant is conducting most of the work in lieu of the contract
manager. NRC’s project officer expressed concern that the contract manager is
not available as much as NRC would like and that Cornell relies on the
administrative assistant to carry out the work. However, this delegation of
administrative functions is not prohibited by the current contract.

                                               5
                                  Audit of NRC’s Contract for Alternative Dispute Resolution Services



Further, NRC project officers play a critical role in contract management and
NRC’s acquisition certification program is key to their success. While the project
officer for the ADR contract was certified under NRC’s program, that certification
expired in November 2007.

Reduced Contract Oversight

NRC lacks the ability to provide contract oversight because the agency’s contract
needs to be modified or renegotiated to correct inadequate billing procedures
and the insufficient statement of work. Moreover, the project officer does not
have the time to perform rigorous contract management duties, including taking
the required acquisition recertification training.

As a result, NRC has a reduced ability to prevent procurement fraud and abuse
and may be paying more than needed for the ADR services. For example,
although the travel expenses are currently low, NRC has no controls in place to
validate these costs should they increase. Furthermore, an administrative
assistant at Cornell is performing the work that should be performed by a more
senior official per Cornell’s proposal. Such an issue can lead to cost mischarging.


RECOMMENDATIONS

The Office of the Inspector General recommends that the Executive Director for
Operations:

1.     Either modify or renegotiate the current contract to:

       A.    Include explicit billing instructions that establish standards such as
             monthly billing requirements.

       B.    Strengthen the statement of work to include specific deliverables and
             milestone dates.

2.     Require the project officer to be certified/recertified under NRC’s
       acquisition certification program.

Standards for Avoiding Conflict of Interest

In accordance with Federal Acquisition Regulation, the Government shall
conduct all contracting business in a manner above reproach. As such, the
general rule is to strictly avoid any conflict of interest or even the appearance of a
conflict of interest in Government-contractor relationships. Conflict of interest
refers to a situation when someone, such as a public official, has competing
professional or personal obligations that would make it difficult to fairly fulfill his or
her duties.



                                              6
                                Audit of NRC’s Contract for Alternative Dispute Resolution Services



Conflict of Interest Perception

NRC’s project officer for the ADR contract is listed as a Cornell faculty member
for an ADR workshop sponsored by the University. Although the project officer
taught a portion of the workshop, Cornell did not provide payment for the
services. However, this close association gives the appearance of a conflict of
interest in Government-contractor relationships.

As such, the project officer should not be identified or participate as Cornell
faculty because of the appearance of favoritism to the contractor.


RECOMMENDATION

The Office of the Inspector General recommends that the Executive Director for
Operations:

3.     Preclude the project officer for the ADR contract from participating as
       faculty in any future Cornell workshops.


SUMMARY AND CONCLUSION

NRC needs to strengthen its ability to provide the needed contract oversight to
prevent procurement fraud and abuse over its ADR contract. As such, the
agency should review and reconsider the current contract with particular attention
on the billing requirements and statement of work. NRC also needs to increase
its contract management. In addition, NRC should take appropriate steps to
ensure that there is not even the appearance of a conflict of interest due to the
project officer’s association with NRC’s contractor for ADR services.


CONSOLIDATED LIST OF RECOMMENDATIONS

1.     Either modify or renegotiate the current contract to:

       A.   Include explicit billing instructions that establish standards such as
            monthly billing requirements.

       B.   Strengthen the statement of work to include specific deliverables and
            milestone dates.

2.     Require the project officer to be certified/recertified under NRC’s
       acquisition certification program.

3.     Preclude the project officer for the ADR contract from participating as
       faculty in any future Cornell workshops.

                                            7
                               Audit of NRC’s Contract for Alternative Dispute Resolution Services



SCOPE AND METHODOLOGY

To accomplish the audit’s objective, the OIG audit team reviewed the Federal
Acquisition Regulation, NRC’s ADR policy, Management Directive 11.1, the ADR
services contract, and other ADR-related documents. The audit team
interviewed officials at Cornell University and NRC personnel in the Office of
Enforcement and the Office of Administration.

OIG conducted this audit between July 2007 and October 2007 in accordance
with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our finding and conclusion based on our audit objective.
The work was conducted by Sherri Miotla, Team Leader; Catherine Colleli, Audit
Manager; Terri Cooper, Audit Manager; and James McGaughey, Senior Analyst.


AGENCY COMMENTS

At an exit conference on January 25, 2008, NRC provided informal, written
comments on the draft audit report. On January 30, 2008, and February 15,
2008, OIG audit staff met with agency officials and further discussed the report.
OIG incorporated the suggestions as appropriate and NRC provided additional
informal, written comments. On March 4, 2008, OIG issued a formal draft report
and on March 17, 2008, NRC provided formal written comments. OIG
incorporated those comments, as appropriate, into the final report. See
Appendix A for the agency’s comments in full and Appendix B for OIG’s detailed
responses to the agency’s comments.

Please provide information on actions taken or planned on the recommendation
within 30 days of the date of this memorandum. Actions taken or planned are
subject to OIG follow-up, as stated in the attached instructions.




                                           8
                    Audit of NRC’s Contract for Alternative Dispute Resolution Services


                                                                          Appendix A


AGENCY FORMAL COMMENTS




                                9
Audit of NRC’s Contract for Alternative Dispute Resolution Services




           10
                                Audit of NRC’s Contract for Alternative Dispute Resolution Services


                                                                                      Appendix B


DETAILED OIG RESPONSES TO AGENCY COMMENTS

At an exit conference on January 25, 2008, NRC provided informal, written
comments on the draft audit report. On January 30, 2008, and February 15,
2008, OIG audit staff met with agency officials and further discussed the report.
OIG incorporated the suggestions as appropriate and NRC provided additional
informal, written comments. On March 4, 2008, OIG issued a formal draft report
and on March 17, 2008, NRC provided formal written comments (see Appendix
A). OIG’s responses to NRC’s formal written comments are provided after each
NRC comment.

Note: The page numbers used in NRC’s comments (see Appendix A) do not
correspond with the page numbers in this report because of line spacing
difference between the draft report (at 1.5 spaces) and the final report (at single
space).

NRC General Comment 1

The draft report state that, “the NRC lacks or does not have the ability to provide
effective contract oversight.” The NRC does not lack the ability to provide
effective contract oversight. The NRC complies with Federally mandated training
certification requirements for its acquisition professionals and project managers.
At issue in this case is the perceived lack of an adequate framework within the
requirements of this specific contract to provide effective oversight, e.g., lack of
more specific billing and reporting requirements.

OIG Response:

As stated in the report, NRC’s inability to provide effective contract oversight is
because the agency is not able to reasonably know the contract’s cost or
performance details. More specifically, the current contract contains limited
billing instructions and no requirements for travel reimbursement or for billing
frequency. Moreover, the statement of work lacks the detailed requirements and
definitive standards NRC needs to measure the contractor’s performance. As a
result, NRC currently lacks the ability to provide effective oversight for the
contract for alternative dispute resolution services.

NRC General Comment 2

The draft report also states that, in effect, the NRC does not have any control
over contract costs for this project. The subject contract type is Firm Fixed price.
This contract type precludes the need for the NRC to monitor individual cost
elements and actual costs incurred, with the exception of travel costs which are




                                           11
                               Audit of NRC’s Contract for Alternative Dispute Resolution Services



approved by the NRC in accordance with the Federal travel regulations. The
schedule in the contract dictates pre-established prices for various mediation
services, regardless of individual cost elements, and represents the pricing
arrangement that affords the least of degree of risk to the NRC.

OIG Response:

The report provides evidence that NRC lacks the necessary controls for effective
cost oversight. For example, NRC is unable to validate contractor travel
expenses.

NRC Recommended Editorial Change Comment 1

As a result, the price per case can range from a little over $400.00 to almost
$4,000.00 depending on how far the case proceeds through the process, how
many days of mediation are required, the travel costs, and whether the NRC is a
party to the ADR session (post-investigation ADR).

OIG Response:

OIG acknowledges that early ADR versus post-investigation ADR can also affect
the cost of the case. However, the report remains unchanged.

NRC Recommended Editorial Change Comment 2

However, the contractor is not required to contact NRC or provide any
deliverables until task five for early-ADR, which is the mediation conclusion.

OIG Response:

The statement of work does not specify early ADR or post-investigation ADR.
Therefore, the report remains unchanged.

NRC Recommended Editorial Change Comment 3

For post-investigation ADR, the NRC is required to be contacted at tasks 1, 2,
and 3 since they are a party to the mediation session. During task five, the
contractor is required to provide NRC with a copy of each completed case
evaluation.

OIG Response:

The statement of work does not specify that the contractor should contact NRC
at tasks 1, 2, or 3. Therefore, the report remains unchanged.




                                          12
